No.
IN THE
SUPREME COURT OF THE UNITED STATES
DEANDRE M. SMITH,
vs.

Petitioner,

STATE OF WISCONSIN,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(b) and consistent with this
Court’s Order dated April 15, 2020, I certify that on October 16, 2020, an
original and one copy of the Petition for a Writ of Certiorari, including
appendix and Motion for Leave to Proceed in Forma Pauperis, was sent via
1st class mail to the U.S. Supreme Court and a digital copy of each of those
same documents was sent to counsel for the Respondent by electronic mail
at: oneilar@doj.state.wi.us.
Respondent, Assistant Attorney General Aaron O’Neil for the State of
Wisconsin Department of Justice, Criminal Appeals Unit, has consented to
electronic service.
Dated this 16th day of October, 2020.
Counsel for Petitioner:
/s/ Electronically signed
by Dana Lesmonde
Dana LesMonde
Counsel of record
LesMonde Law Office
354 W. Main St.
Madison, WI 53703
(608) 257-3176
lesmondelaw@outlook.com

